U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

November 30, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
1 First Street NE
Washington, D.C. 20543
Re: Dozier v. United States, No. 20-136
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 3,
2020. The government’s response is now due, after three extensions, on December 2, 2020. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including December 3, 2020, within which to file a response.
This short extension is necessary because, in light of COVID-19, this Office is endeavoring
to minimize risks to the health and safety of our personnel responsible for the filing and service of
paper copies of Court documents by reducing the number of days each week on which the filing
and service of such documents are necessary and on which those personnel must report to work in
person.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

20-0136
DOZIER, TREMAYE T.
USA

MATTHEW S. HELLMAN
JENNER & BLOCK LLP
1099 NEW YORK AVENUE, NW
SUITE 900
WASHINGTON , DC 20001-4412
202-639-6000
MHELLMAN@JENNER.COM

